                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS .

                                              CLOSEOUT MEMORANDUM

Case Number: A08090045                                                                         Page 1 of 1



                 We contacted a PI' regarding a small amount of text that appeared to have been copied from
         his graduate student2 into a proposal3 without distinguishing the text from the PI'S original text or
         providing any form of attribution to the student. The NSF Grant Proposal Guide states that authors
         other than the PI or CoPI on a proposal should be identified in the proposal. The graduate student
         was not identified as an author but as the graduate student who would likely be carrying out the
         work. The PI and graduate student both signed the response to our inquiry indicating that the
         graduate student had in fact supplied the copied material to the PI and the PI accepted responsibility
         for not indicating clearly that the student had contributed the text. Under the circumstances, we
         suggested to the PI that additional training for him and his students may be useful in avoiding future
         instances such as this.

                   Accordingly, this case is closed.




                                                                                                                  I




                                                                                                                  I




          1
         2
          3




NSF OIG Form 2 (1 1/02)
